Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




ADVERSE EVENTS IN HOSPITALS:
  MEDICARE’S RESPONSES TO
  ALLEGED SERIOUS EVENTS




                    Daniel R. Levinson
                     Inspector General

                      October 2011
                     OEI-01-08-00590
E   X
       EE CX UE TC I U V T E I VS EU M S M U A MR MY A R Y


                      OBJECTIVES
                      1. To assess the responses of State survey and certification agencies
                         and the Centers for Medicare & Medicaid Services (CMS) to
                         complaints that allege serious adverse events.
                      2. To describe hospital responses to complaints that allege serious
                         adverse events.


                      BACKGROUND
                      The term “adverse event” describes harm to a patient as a result of
                      medical care. In response to the Tax Relief and Health Care Act of
                      2006, the Office of Inspector General (OIG) released a series of reports
                      regarding adverse events. In that work, OIG estimated that over
                      one-quarter of hospitalized Medicare beneficiaries were harmed during
                      their hospital stays in October 2008. This report examines Medicare’s
                      responses to alleged serious adverse events. These responses represent
                      important patient safety opportunities, yet little attention has been paid
                      to their role in improving patient safety.
                      Hospitals must meet the Medicare Conditions of Participation (CoP) to
                      participate in Medicare. On behalf of Medicare, State survey and
                      certification agencies (State agencies) investigate complaints alleging
                      hospital noncompliance with CoPs. Immediate jeopardy (IJ) complaints
                      are the most serious and may allege adverse events. Also, hospitals
                      often conduct their own investigations of adverse events independently
                      of State agencies.
                      Because no national database of adverse events exists, this report uses
                      a random sample of IJ complaints to identify alleged serious adverse
                      events to which Medicare responded. To review the complaints, we used
                      data from CMS, State agencies, hospital accreditors, and the hospitals
                      associated with the sample.


                      FINDINGS
                      State agency responses to complaints alleging serious adverse
                      events were generally timely and often found problems. For 75 of
                      the 95 alleged events in our sample, State agencies conducted complaint
                      surveys at hospitals within 2 days, as required. For 53 of the 95 alleged
                      events in our sample, State agencies cited hospitals for Federal
                      deficiencies while investigating the events. Complaints in our sample


    OEI-01-08-00590   ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                     i
E   X   E C     U T   I    V   E      S         U M          M       A      R Y


                          often included limited information for State agencies to determine the
                          priority and timing of their responses. For half of the complaint
                          surveys, CMS set the scope of the survey to address multiple CoPs.
                          State agencies and CMS missed opportunities to incorporate patient
                          safety principles in their responses. For complaint surveys at
                          accredited hospitals, CMS directed State agencies to assess the CoP on
                          performance improvement in only 33 of the 78 surveys and the CoP on
                          the hospital’s governing body in only 12. State agencies performed little
                          longer term monitoring to verify that hospitals’ corrective actions
                          resulted in sustained improvements. After completing complaint
                          surveys, State agencies required the hospitals to submit performance
                          data for only 1 of the 19 complaints that required corrective action
                          plans. State agencies did not always disclose the nature of complaints
                          to hospitals, thus limiting hospitals’ ability to learn from alleged events.
                          CMS informed the Joint Commission of few complaints, impeding
                          the Joint Commission’s oversight of its accredited hospitals.
                          Contrary to CMS’s policy of notifying accreditors of all complaints
                          against the hospitals they accredit, CMS regional offices notified
                          accreditors of only 28 of the 88 sampled complaints against accredited
                          hospitals.
                          Hospitals investigated most complaints in our sample, finding State
                          agency responses valuable but disruptive. Hospitals reported being
                          aware of 87 of the complaints in our sample and investigated 75 of
                          them, beginning two-thirds of their investigations before State agencies
                          arrived to conduct their onsite complaint surveys. Hospitals’
                          investigations were multidisciplinary and often involved hospital
                          leadership. Hospitals found that State agency responses lent urgency
                          but also disrupted their own responses.
                          Hospital corrective actions resulted largely in training coupled with
                          policy and process changes. Hospitals took 1 or more corrective
                          actions in response to each of 64 complaints. Hospitals’ responses to
                          58 of these complaints included training staff as a corrective action, and
                          the responses to 42 complaints included policy or process changes.
                          Hospitals took disciplinary actions, such as firing staff, in one-third of
                          complaints resulting in corrective actions. For just under one-third of
                          complaints resulting in corrective actions, the corrective actions
                          included changes to devices, software, or workspaces designed to
                          prevent adverse events by forcing staff into a course of action, rather
                          than relying on their memory or adherence to procedures.

    OEI-01-08-00590       ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                         ii
E   X   E C     U T   I    V   E      S         U M          M       A      R Y



                          RECOMMENDATIONS
                          Require that all Immediate Jeopardy complaint surveys evaluate
                          compliance with the Condition of Participation on quality assurance
                          and performance improvement. CMS identifies this CoP as central to
                          patient safety and to a hospital’s ability to identify, track, analyze, and
                          prevent adverse events. Furthermore, CMS should consider limiting
                          the initial scope of the IJ complaint survey to this CoP and the
                          allegation itself.
                          Ensure that State agencies monitor hospitals’ corrective actions for
                          sustained improvements. Defining and monitoring outcome measures
                          are important elements of quality improvement and, thereby, patient
                          safety. After hospitals have implemented corrective actions, CMS
                          should require State agencies to monitor the results—for example, by
                          collecting and analyzing hospitals’ performance data or by revisiting
                          hospitals. State agencies should take action when hospitals’ corrective
                          actions fail to yield effective and sustained improvements.
                          Amend guidance on disclosure to explain the nature of complaints
                          to hospitals. Improving disclosure to hospitals would provide them
                          with opportunities to analyze and learn from alleged adverse events.
                          Improve communication with accreditors. CMS should ensure that
                          its regional offices follow its policy on notifying accreditors of complaints
                          against accredited hospitals. CMS could clarify its instructions and
                          educate regional office staff on how and when to notify accreditors of
                          complaints against accredited hospitals.


                          AGENCY COMMENTS
                          CMS concurred with our recommendations and described how it will
                          increase the prominence of the CoP on quality assessment and
                          performance improvement in complaint surveys, enhance monitoring of
                          the efficacy of corrective actions, and improve communication with
                          hospitals at the outset of complaint surveys. CMS also stated that it
                          will work with its regional offices to improve their compliance with its
                          policy to notify accreditation organizations of complaints against
                          accredited hospitals.
                          We made minor changes to the report based on technical comments
                          from CMS.




    OEI-01-08-00590       ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                         iii
   T A B L E          O F            C O N T E N T S



          EXECUTIVE SUMMARY ..................................... i


          INTRODUCTION ............................................ 1


          F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                     State agency responses to complaints alleging serious adverse
                     events were generally timely and often found problems . . . . . . . . 13

                     State agencies and CMS missed opportunities to incorporate
                     patient safety principles in their responses . . . . . . . . . . . . . . . . . . 16

                     CMS informed the Joint Commission of few complaints,
                     impeding the Joint Commission’s oversight of its accredited
                     hospitals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

                     Hospitals investigated most complaints in our sample,
                     finding State agency responses valuable but disruptive . . . . . . . . 19

                     Hospital corrective actions resulted largely in training coupled
                     with policy and process changes . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


          R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
                     Agency Comments and Office of Inspector General Response . . . . 26


          A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
                     A: Tax Relief and Health Care Act of 2006 . . . . . . . . . . . . . . . . . . 27

                     B: Office of Inspector General Series of Reports on Adverse
                        Events . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

                     C: National Quality Forum Serious Reportable Events . . . . . . . . 30

                     D: Centers for Medicare & Medicaid Services
                        Hospital-Acquired Conditions . . . . . . . . . . . . . . . . . . . . . . . . . . 31

                     E: Medicare Hospital Conditions of Participation . . . . . . . . . . . . . 32

                     F: Descriptive Tables of Sampled Complaints . . . . . . . . . . . . . . . . 33

                     G: Joint Commission Response to Complaints . . . . . . . . . . . . . . . . 36

                     H: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38


          A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43
   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To assess the responses of State survey and certification agencies
                     and the Centers for Medicare & Medicaid Services (CMS) to
                     complaints that allege serious adverse events.
                  2. To describe hospital responses to complaints that allege serious
                     adverse events.


                  BACKGROUND
                  Statutory Mandate and Office of Inspector General Response
                  The Tax Relief and Health Care Act of 2006 requires that the Office of
                  Inspector General (OIG) report to Congress regarding the incidence of
                  “never events” among Medicare beneficiaries, among other topics.1 (For
                  the relevant text of this Act, see Appendix A.) To meet the
                  requirements of this Act, OIG released a series of reports beginning in
                  2008 and will publish additional reports based on ongoing work. (See
                  Appendix B for a list of OIG reports in the series.) The published
                  reports assessed State adverse event reporting systems, public
                  disclosure of adverse events, and the national incidence of adverse
                  events among the Medicare population.
                  This report supplements that body of work by assessing the responses of
                  State survey and certification agencies (State agencies) and CMS to
                  complaints that allege serious adverse events. It also describes the
                  hospitals’ responses, which helps in understanding the backdrop against
                  which the former responds. These responses represent important
                  patient safety opportunities, yet little attention has been paid to their
                  role in improving patient safety.
                  Adverse Events in Hospitals
                  The health care community now uses the term “adverse event” more
                  commonly than “never event.” An adverse event is generally defined as
                  patient harm as a result of medical care or in a hospital. Although an
                  adverse event indicates that the care resulted in an undesirable clinical
                  outcome and may involve errors, adverse events do not always involve
                  errors, negligence, or poor quality of care and are not always
                  preventable.2 OIG estimated that in October 2008, 13.5 percent of


                    1 Tax Relief and Health Care Act of 2006, P.L. 109-432 § 203.
                    2 R.M. Wachter, Understanding Patient Safety, McGraw-Hill, 2008.




OEI-01-08-00590   ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                 1
I   N T    R O        D   U     C T      I   O        N


                              hospitalized Medicare beneficiaries experienced an adverse event
                              during their hospital stays. Those events resulted in a prolonged
                              hospital stay, permanent harm, life-sustaining intervention, or death.
                              Furthermore, OIG’s analysis estimated that an additional 13.5 percent
                              of beneficiaries experienced adverse events that resulted in temporary
                              harm, such as prolonged vomiting or hypoglycemia. 3
                              The Institute of Medicine (IOM) is often credited with first drawing
                              attention to adverse events in hospitals. 4 More recently, many
                              organizations and payers have further defined the harm associated with
                              adverse events or developed payment policies related to them. For
                              example, the National Quality Forum (NQF) maintains a list of events
                              associated primarily with patient death or serious disability that are
                              both egregious and preventable. 5 (See Appendix C for the list of
                              NQF-defined serious reportable events.) In addition, on October 1,
                              2008, CMS began denying hospitals higher Medicare payments for care
                              associated with certain hospital-acquired conditions (HACs). 6 Examples
                              of HACs include catheter-associated urinary tract infections and patient
                              injuries because of falls.7 (See Appendix D for the complete list of
                              CMS-defined HACs.) In January 2009, CMS published three National
                              Coverage Determinations denying payment for three surgery-related
                              adverse events: wrong site, wrong patient, and wrong procedure. 8, 9, 10




                                3 OIG, Adverse Events in Hospitals: National Incidence Among Medicare Beneficiaries,

                              OEI-06-09-00090, November 2010.
                                4 IOM,   To Err is Human: Building a Safer Health System, 1999.
                                5 NQF,   Serious Reportable Events in Healthcare 2006 Update. Accessed at
                              http://www.qualityforum.org on December 13, 2010.
                                6 Fiscal Year (FY) 2009 Hospital Inpatient Prospective Payment System Final Rule,
                              73 Fed. Reg. 48434, 48471-48472 (August 19, 2008); CMS, CMS Manual System, Change
                              Request 6189 (Oct. 3, 2008).
                                 7 The Deficit Reduction Act of 2005, P.L. 109-171 § 5001(c)(1), required HACs to meet the

                              following criteria: conditions that are high cost, high volume, or both; conditions that, when
                              present as a secondary diagnosis, result in a higher payment; conditions that could be
                              reasonably prevented by using readily available evidenced-based guidelines; and conditions
                              that are identifiable based on one or more unique diagnosis codes. Social Security Act,
                              § 1886(d)(4)(D)(iv), 42 U.S.C. § 1395ww(d)(4)(D).
                                8 CMS, “Decision Memo for Surgery on the Wrong Body Part,” January 15, 2009.

                              Accessed at http://www.cms.hhs.gov on December 8, 2010.
                                 9 CMS, “Decision Memo for Surgery on the Wrong Patient,” January 15, 2009. Accessed

                              at http://www.cms.hhs.gov on December 8, 2010.
                                10 CMS, “Decision Memo for Wrong Surgery Performed on a Patient,” January 15, 2009.

                              Accessed at http://www.cms.hhs.gov on December 8, 2010.



    OEI-01-08-00590           ADVERSE EVENTS     IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                               2
I   N T    R O        D   U     C T       I   O        N


                              Adverse events can be defined more broadly than NQF has done in its
                              list of serious reportable events or than CMS has done with its list of
                              HACs and nonpayment policies. For example, the event could result in
                              harm that is psychological or that stems from abuse or neglect. CMS
                              uses these broader definitions in its evaluation of harm to Medicare
                              beneficiaries. 11
                              Patient Safety
                              Since IOM’s seminal work, the health care community has widely
                              adopted the goal of improving patient safety. Experts point to the
                              importance of evidence-based medicine and quality improvement
                              activities to improve patient safety.12 Such activities generally
                              emphasize principles such as learning from adverse events through
                              reporting, analysis, and measurement. Furthermore, experts cite the
                              importance of the commitment by a hospital’s leadership and staff to
                              creating a culture of safety and achieving improved quality. 13
                              Preventing, identifying, and responding to adverse events are typically
                              among the goals of patient safety efforts. However, identifying adverse
                              events is challenging. Methods to identify adverse events—such as
                              medical record reviews, examination of hospital incident reporting
                              systems, patient interviews, and billing data analysis—have strengths
                              and limitations and can also be resource intensive. 14 Complaints about
                              hospitals represent another potential way to identify adverse events.
                              Medicare’s Quality Oversight of Hospitals
                              Medicare’s quality oversight of hospitals is based on the Medicare
                              Conditions of Participation (CoP). 15 CoPs are minimal health and
                              safety requirements that hospitals must meet to be eligible for Medicare
                              participation.16 They cover topics ranging from the credentialing and


                                11 CMS, State Operations Manual (SOM), Pub. 100-07, Appendix Q. Accessed at
                              http://www.cms.gov on September 17, 2010.
                                12 Donald M. Berwick, “The Science of Improvement,” Journal of the American Medical

                              Association (JAMA), Vol. 299, No. 10, March 2008, pp. 1182-1184; Lucian L. Leape, Donald
                              M. Berwick, and David W. Bates, “What Practices Will Most Improve Safety?
                              Evidence-Based Medicine Meets Patient Safety,” JAMA, Vol. 288, No. 10, July 2002, pp.
                              501-507.
                                13 James P. Bagian, “Patient Safety: What Is Really at Issue?”,                                   Frontiers of Health
                              Services Management, Vol. 22, No. 1, Fall 2005, pp. 3-16.
                                14 OIG,   Adverse Events in Hospitals: Methods for Identifying Events, OEI-06-08-00221,
                              March 2010.
                                15 42 CFR pt. 482.
                                16 Social Security Act, § 1861(e), 42 U.S.C. § 1395x(e); 42 CFR § 488.3(a)(2).




    OEI-01-08-00590           ADVERSE EVENTS      IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                                        3
I   N T    R O        D   U     C T       I   O        N


                              privileging of physicians to the hospital’s governing body and
                              management. (See Appendix E for the current list of 23 CoPs.) Each
                              CoP includes related standards that hospitals must meet. 17
                              Patient safety is encompassed in the CoP on quality assessment and
                              performance improvement (QAPI). The QAPI CoP requires hospitals to
                              maintain effective quality assurance and performance improvement
                              systems that emphasize feedback and learning. 18 It also places
                              responsibility for QAPI on the hospitals’ governing bodies. Likewise,
                              the CoP on the hospital’s governing body further states the governing
                              body’s accountability for the entire institution.19
                              The Department of Health and Human Services (HHS) and CMS
                              consider the principles incorporated in these CoPs to be critical to
                              promoting patient safety. HHS recently launched the Partnership for
                              Patients, an initiative designed to make health care delivery safer, more
                              reliable, and less costly. Among other things, this initiative emphasizes
                              the importance of governing bodies in developing and maintaining a
                              culture of safety at hospitals.20 In its comments on OIG’s report on the
                              national incidence of adverse events among the Medicare population,
                              CMS stressed the importance of these CoPs to patient safety. 21
                              Hospitals may choose accreditation or demonstrate to CMS that they
                              meet the CoPs; over 90 percent opt for accreditation. 22, 23 Pursuant to
                              the Social Security Act, hospitals accredited by certain national
                              accreditors are deemed to meet the CoPs; CMS refers to them as
                              hospitals with deemed status.24, 25 Hospitals that do not opt for
                              accreditation can demonstrate to CMS that they meet the CoPs through




                                17   SOM, ch. 1, § 1016. Accessed at http://www.cms.gov on March 18, 2011.
                                18 42 CFR § 482.21.
                                19 42 CFR § 482.12.
                                20 HHS, Partnership             for Patients. Accessed at http://www.healthcare.gov on April 28,
                              2011.
                                21 OIG, Adverse Events in Hospitals: National Incidence Among Medicare Beneficiaries,

                              OEI-06-09-00090, November 2010, pp. 71-72.
                                22 Social Security Act, § 1864(a), 42 U.S.C. § 1395aa(a); 42 CFR § 488.10(a)(1).
                                23 Social Security Act, § 1865, 42 U.S.C. § 1395bb; 42 CFR § 488.5(a).
                                24 Ibid.
                                25 Three organizations accredit hospitals for participation in Medicare: the Joint

                              Commission, the American Osteopathic Association, and Det Norske Veritas Healthcare.
                              The Joint Commission accredits the majority of accredited hospitals.


    OEI-01-08-00590           ADVERSE EVENTS      IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                                4
I   N T    R O        D   U     C T       I   O        N


                              a survey process by a State survey and certification agency (State
                              agency).26
                              The accreditation process and the State agency process rely on periodic
                              onsite inspections—called surveys—of hospitals. Generally, accreditors
                              or State agencies conduct surveys to add hospitals to Medicare,
                              reevaluate hospitals in the program, and respond to complaints and
                              adverse events.
                              State Agency Responses to Complaints
                              The Social Security Act requires the Secretary to enter into agreements
                              with State agencies to investigate allegations that hospitals have not
                              complied with Federal requirements.27 Because State agencies are
                              responsible for ensuring that participating providers of health care
                              services continually meet Federal requirements, CMS requires that the
                              agencies promptly review complaints and reports of incidents,
                              regardless of providers’ accreditation status. 28
                              CMS considers an allegation to be “an assertion of improper care or
                              treatment that could result in the citation of a Federal deficiency.” 29 (A
                              Federal deficiency means that the hospital is not in full compliance with
                              one or more of the CoPs.) Such allegations may involve adverse events.
                              State agencies learn of allegations through their complaint processes.
                              The complaint process, therefore, represents a key part of CMS’s patient
                              safety system because it is a potential resource for identifying and
                              responding to adverse events.
                              State agencies may receive self-reported allegations from hospitals, or
                              they may receive allegations from patients or others in the form of
                              complaints. They may also identify allegations through media reports.
                              For the purposes of this study, we will refer to all allegations as
                              complaints, regardless of their source.
                              The quality and completeness of information provided by a complainant
                              plays an important role in the State agency’s response. State agency
                              staff and CMS regional office staff rely on the details in the complaints
                              to determine the priority and scope of their responses. For example,
                              upon receiving a complaint, a State agency assigns an investigative

                                26 Social Security Act, § 1864(a), 42 U.S.C. § 1395aa(a); 42 CFR § 488.10(a)(1).
                                27 Social Security Act, §§ 1864(a) and (c), 42 U.S.C. §§ 1395aa(a) and (c); 42 CFR

                              §§ 488.10 and 488.11.
                                28   SOM, ch. 5, § 5000.2. Accessed at http://www.cms.gov on September 17, 2010.
                                29 SOM, ch. 5, § 5010. Accessed at http://www.cms.gov on September 17, 2010.




    OEI-01-08-00590           ADVERSE EVENTS      IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                                5
I   N T    R O        D   U     C T       I   O        N


                              priority based on CMS policy. 30 The highest priority is “immediate
                              jeopardy” (IJ), which CMS defines as “a situation in which the
                              provider’s noncompliance with one or more requirements of
                              participation has caused, or is likely to cause, serious injury, harm,
                              impairment, or death....” 31 IJ complaints trigger an unannounced onsite
                              survey within 2 working days of receipt of the complaint. 32
                              The accreditation status of the hospital involved in the complaint also
                              plays an important role in determining how the State agency responds.
                              If the hospital is accredited, the State agency must forward the
                              complaint to the CMS regional office for approval to conduct a complaint
                              survey. 33 The CMS regional office also identifies the CoPs to be covered
                              in the complaint survey that the State agency will conduct. 34 By
                              identifying the CoPs to be covered, the regional office determines the
                              survey’s scope. For nonaccredited hospitals, the State agency
                              determines the scope of the complaint survey and does not need the
                              regional office’s approval. 35, 36
                              Outcomes of State Agency Responses
                              During a complaint survey, the State agency may find that a hospital
                              has one or more Federal deficiencies. The actions that the State agency
                              takes are determined by the level of the deficiency (condition or
                              standard) and the hospital’s accreditation status.37 Actions can include
                              requiring the hospital to submit a plan of correction to the State agency.
                              CMS states that, in addition to describing corrective actions, a plan of
                              correction must describe the monitoring procedure that the hospital will


                                30   SOM, ch. 5, §§ 5070 and 5075. Accessed at http://www.cms.gov on September 17,
                              2010.
                                31 42 CFR § 489.3; SOM, ch. 5, § 5075.1.
                                32 Lower priority complaints may trigger an unannounced onsite survey within 45 days
                              or be investigated by the State agency during its next onsite survey. SOM, ch. 5, § 5075.9.
                              Accessed at http://www.cms.gov on September 17, 2010.
                                33 Ibid.
                                34 SOM, ch. 5, § 5100.1. Accessed at http://www.cms.gov on September 17, 2010.
                                35 SOM, ch. 5, § 5200.1. Accessed at http://www.cms.gov on September 17, 2010.
                                36 The State agency also does not require the CMS regional office’s approval to conduct a

                              complaint survey of an accredited hospital if the basis of the complaint investigation is
                              potential noncompliance with State requirements. SOM, ch. 5, § 5100.1. Accessed at
                              http://www.cms.gov on September 17, 2010.
                                37A condition-level deficiency means that the manner and degree of noncompliance
                              results in failure to substantially comply with the entire CoP. A standard-level deficiency
                              means that noncompliance exists, but the manner and degree of noncompliance does not
                              rise to the level of substantial noncompliance with the entire CoP.



    OEI-01-08-00590           ADVERSE EVENTS      IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                                6
I   N T    R O        D   U     C T       I   O        N


                              use to ensure that corrective actions are effective and sustained.38 State
                              agency actions can also include recommending that CMS begin the
                              process to terminate the hospital from participating in Medicare. The
                              State agency may also return to the hospital to conduct a full survey
                              covering all the CoPs. 39
                              A nonaccredited hospital must submit a plan of correction for any
                              deficiencies. 40 An accredited hospital must submit a plan of correction
                              only for condition-level deficiencies in certain instances. When the
                              State agency identifies a condition-level deficiency during a complaint
                              survey of an accredited hospital, the CMS regional office removes the
                              hospital’s deemed status and the hospital comes under the State
                              agency’s jurisdiction. The State agency must then conduct a full survey
                              of the hospital; the results of that survey determine what further steps
                              the State agency will take.
                              Finally, CMS policy requires CMS’s regional offices to notify accreditors
                              of all complaints forwarded by State agencies once they are resolved.41
                              Investigation of Complaints by Accreditors
                              Accreditors may investigate and respond to complaints against
                              accredited hospitals regardless of whether State agencies have
                              responded. Like State agencies, accreditors review and assign priorities
                              to complaints. Complaints assigned the highest priority may trigger
                              unannounced onsite surveys.
                              Other Oversight Entities That May Respond to Adverse Events
                              Entities other than State agencies and accreditors may respond to
                              adverse events. For example, the Centers for Disease Control and
                              Prevention may respond to infectious disease outbreaks. State
                              protection and advocacy agencies may respond to events involving elder
                              abuse. State professional licensure boards may respond when events
                              involve problems with licensed professionals, such as doctors or nurses.
                              Local law enforcement may also respond, especially when the events
                              involve suicides or crimes, such as assaults.




                                38   SOM, ch. 2, § 2728B. Accessed at http://www.cms.gov on September 17, 2010.
                                39   SOM, ch. 5, § 5100.2. Accessed at http://www.cms.gov on September 17, 2010.
                                40   SOM, ch. 5, § 5200.1. Accessed at http://www.cms.gov on September 17, 2010.
                                41   SOM, ch. 5, § 5100. Accessed at http://www.cms.gov on September 17, 2010.


    OEI-01-08-00590           ADVERSE EVENTS      IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                                7
I   N T    R O        D   U     C T    I   O        N


                              Hospital Responses to Adverse Events
                              Hospitals have a frontline responsibility to respond to adverse events
                              and prevent harm from them. Hospitals can investigate actual or
                              alleged adverse events themselves independently of any external
                              response (such as from the State agency or accreditor). Their
                              investigations can also precede, coincide with, or follow others’
                              responses. Likewise, hospitals can institute their own corrective actions
                              based on their investigations. Hospitals’ internal systems for
                              identifying, tracking, and responding to alleged adverse events are
                              critical to promoting patient safety and ensuring that events are
                              responded to appropriately.
                              Scope
                              This report assesses State agencies’ and CMS’s responses to a sample of
                              IJ complaints against hospitals. We use IJ complaints to identify
                              serious adverse events because they are likely to signify situations
                              involving patient harm and because no national database of adverse
                              events exists. This report includes IJ complaints against accredited and
                              nonaccredited hospitals received by State agencies during fiscal year
                              (FY) 2008.
                              We focus on State agencies because of their role in responding to
                              complaints about accredited and nonaccredited hospitals. We focus on
                              CMS because of its role in directing State agency responses.
                              Finally, this report also describes hospitals’ responses to the IJ
                              complaints. We include this information because we believe it provides
                              important context about what is happening at hospitals when State
                              agencies respond.


                              METHODOLOGY
                              This study relied on a review of a simple random sample of IJ
                              complaints against hospitals, which we used as a proxy for serious
                              adverse events. Our other data sources were CMS, State agencies,
                              accreditors, and the hospitals associated with the complaints in our
                              sample. In planning for our review, we conducted structured interviews
                              with staff at CMS, accreditors, and other stakeholders.
                              Sample Selection
                              We first obtained a file from CMS’s Automated Survey Processing
                              Environment Complaints Tracking System (ACTS) of all IJ complaints



    OEI-01-08-00590           ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                             8
I   N T    R O        D   U     C T     I   O        N


                              against hospitals that State agencies received, investigated, and closed
                              during FY 2008.42 After consulting with CMS, we excluded alleged
                              violations of the Emergency Medical Treatment and Active Labor Act
                              (EMTALA) because they were less likely to represent adverse events
                              and because they are monitored differently. 43 After we excluded alleged
                              EMTALA violations, the file of IJ complaints contained 351 complaints.
                              From it, we selected a simple random sample of 100 complaints against
                              81 hospitals. We removed one complaint from the sample after data
                              from CMS and State agencies showed that two complaints in our sample
                              involved the same alleged event. Our final sample contained
                              99 complaints against 81 hospitals. (See Appendix F for more
                              information about the complaints in our sample.)
                              Data Collection
                              For each of the complaints in our sample, we collected data from CMS,
                              State agencies, hospital accreditors, and hospitals.
                              Data from CMS and State Agencies
                              From CMS and State agencies we requested:
                              o the full Complaint Investigation Report, which contains data and
                                narrative details on the intake of the complaint, the complaint
                                survey, deficiencies cited, and other information;
                              o Form(s) 2567, Statement of Deficiencies and Plan of Correction,
                                resulting from the survey(s) related to the complaint;
                              o if applicable, Form 2802, Request for Validation of Accreditation
                                Survey for Hospital, showing the CMS regional office’s approval for
                                the State agency to conduct a complaint survey and its approved
                                scope, i.e., the CoPs to be covered;
                              o if available, other supporting documents, such as correspondence
                                between the oversight entities and hospitals.
                              We received the Complaint Investigation Report for each of the
                              99 complaints in our sample. We received one or more Forms 2567 for


                                42 We focused on short-term hospitals that generally have an average length of stay of
                              fewer than 25 days and do not include long-term care, rehabilitation, psychiatric, or
                              children’s hospitals.
                                43 Social Security Act §§ 1866(a)(1)(I), 1866(a)(1)(N), and 1867, 42 U.S.C.
                              §§ 1395cc(a)(1)(I), 1395cc(a)(1)(N), and 1395dd. EMTALA sets forth requirements for
                              medical screening examinations for medical conditions, as well as necessary stabilizing
                              treatment or appropriate transfer of individuals seeking emergency treatment at hospitals.



    OEI-01-08-00590           ADVERSE EVENTS    IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                              9
I   N T    R O        D   U     C T     I   O        N


                              96 of the complaints in our sample. We received Forms 2802 for 82 of
                              the complaints in our sample against accredited hospitals. 44 We
                              received other supporting documents for 90 of the complaints in our
                              sample.
                              Data from Hospital Accreditors
                              We used data from the three hospital accreditors to determine that 92 of
                              the 99 complaints in our sample were against hospitals accredited by
                              the Joint Commission. None of the complaints in our sample were
                              against hospitals accredited by the American Osteopathic Association or
                              Det Norske Veritas Healthcare.
                              We provided the Joint Commission with a list of complaints along with
                              the dates and brief descriptions of the alleged events underlying the
                              complaints. We asked the Joint Commission for details regarding its
                              awareness of those events and its responses. The Joint Commission
                              provided this information for all of the complaints.
                              Data from Hospitals
                              To supplement data from CMS, State agencies, and the Joint
                              Commission, we sent a questionnaire (the hospital questionnaire) to the
                              hospitals associated with the complaints in our sample. If a hospital
                              had more than one complaint in our sample, we sent one questionnaire
                              for each complaint. The hospital questionnaire covered hospitals’
                              responses to the events and the responses by Medicare and other
                              oversight entities. For nonresponders and for responders with
                              questions, we followed up by telephone and email. (We did not disclose
                              any protected health information by email.) Hospitals did not complete
                              questionnaires for three complaints for which they were unaware of the
                              underlying adverse events and three complaints for which staff turnover
                              or change in hospital ownership hampered access to the necessary
                              people and records. We received no response from two hospitals. In
                              total, we obtained completed questionnaires from 74 hospitals, covering
                              91 of the complaints in our sample.

                                44 We received 86 Forms 2802. We removed 4 of these forms from our analysis because
                              they were for complaints against nonaccredited hospitals, leaving forms that covered 82 of
                              the 92 complaints in our sample against accredited hospitals. Of the remaining
                              10 complaints against accredited hospitals, no Form 2802 was required for 2 complaints
                              because the State agency conducted the complaint survey under State authority and for
                              1 complaint because the State agency was already onsite at the hospital for a different
                              survey. Seven complaints had no Form 2802 because the State agency failed to get CMS
                              approval, as required. We notified CMS of these complaints.



    OEI-01-08-00590           ADVERSE EVENTS    IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                              10
I   N T    R O        D   U     C T    I   O        N


                              Finally, to add context to our understanding, we selected a small,
                              purposive subsample of seven complaints against four hospitals to use
                              as case studies of the responses from hospitals and oversight entities.
                              When we selected this subsample, we considered the nature of the
                              events alleged in the complaints and hospital characteristics, including
                              location, size, and mission (e.g., nonprofit, for-profit, academic, or
                              community). Case studies consisted of:
                              o interviews with hospital staff about the alleged event(s) underlying
                                the sampled complaints,
                              o a review of the hospital’s response to the alleged event(s) and
                                related documentation, and
                              o a review of the response(s) by State agencies, CMS, and accreditors.

                              Analysis
                              We removed 4 complaints from our analysis because they alleged unsafe
                              conditions but did not allege serious adverse events, leaving
                              95 complaints that alleged serious adverse events. We used data from
                              CMS and State agencies to assess their oversight responses to these
                              complaints. We used data from CMS and the Joint Commission to
                              assess CMS’s role in the oversight responses to the complaints lodged
                              against accredited hospitals. We used data from hospitals’ completed
                              questionnaires to describe their responses to the complaints. Finally,
                              we supplemented our analysis with data from our seven case studies.
                              (See Table 1 for a summary of our data sources.)




    OEI-01-08-00590           ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                             11
 I   N T     R O       D   U     C T    I    O        N


Table 1: Data Sources by Analysis Topic

                                              Number of                                                                                         Number
Analysis Topic                                           Data Source
                                             Complaints                                                                                        Analyzed
State agency responses for all                        95 Complaint investigation reports                                                              95
hospitals                                                Forms 2567                                                                                   92
                                                         Supporting documents from complaint files                                                    87
                                                         OIG hospital questionnaire                                                                   87
                                                         Case studies                                                                                  7

CMS role in responses for accredited                             88 Forms 2802                                                                       78
hospitals                                                           Supporting documents from complaint files                                        80
                                                                    Data from the Joint Commission                                                   88

Hospital responses                                               87 OIG hospital questionnaire                                                       87
                                                                    Case studies                                                                      7
 Hospital investigations                                         75 OIG hospital questionnaire                                                       75
                                                                    Case studies                                                                      7
 Hospital corrective actions                                     64 OIG hospital questionnaire                                                       64
                                                                    Case studies                                                                      7
 Source: OIG analysis of complaint sample.


                               Limitations
                               This study used a sample of IJ complaints from ACTS as a way to
                               identify serious adverse events to which State agencies and CMS
                               responded. It relied in part on State agencies’ initial prioritization of
                               complaints, which is based on limited and highly variable information
                               from complainants. This study is not intended to be a comprehensive
                               review of State survey agencies’ responses to all complaints, nor is it
                               intended to be a review of ACTS. We did not determine whether the
                               adverse events alleged in the complaints took place. We did not
                               independently verify the data reported to us by CMS, State agencies,
                               accreditors, and hospitals. The results of our review cannot be projected
                               to all complaints in ACTS, nor can they be projected to adverse events
                               as a whole.
                               Standards
                               This study was conducted in accordance with the Quality Standards for
                               Inspection and Evaluation approved by the Council of the Inspectors
                               General on Integrity and Efficiency.




     OEI-01-08-00590           ADVERSE EVENTS    IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                                      12
F   I   N
        F DI N
             I N G S
               D I N G S

            State agency responses to complaints alleging            State agencies have no
              serious adverse events were generally timely           control over the quantity
                                and often found problems             or quality of complaints
                                                                     that they receive;
                       nevertheless, they are obligated to take them seriously and respond
                       appropriately. CMS requires that State agencies begin their onsite
                       surveys in response to complaints prioritized as IJ complaints within
                       2 working days of intake.45
                       State agencies conducted complaint surveys for most of the complaints
                       in our sample within 2 days, as required

                       Although they typically received IJ complaints weeks after adverse
                       events allegedly occurred, State agencies responded within 2 days, as
                       required, for 75 of the 95 complaints in our sample. They began the
                       remaining surveys from 3 days to as long as 3 months after receiving
                       the complaints. According to CMS staff, CMS clarified its instructions
                       to State agencies on investigative priorities and timelines in 2008, the
                       year that this study examines. This may have led State agencies and
                       CMS regional offices to reprioritize some complaints from a lower
                       investigative priority to the higher IJ priority, resulting in those IJ
                       complaints’ being investigated more than 2 days after intake.
                       State agencies cited hospitals for deficiencies while investigating over
                       half the complaints in our sample

                       State agency investigations of 53 of the 95 complaints in our sample led
                       to the hospitals’ being cited for deficiencies. Investigations into the
                       four most common types of complaints—sexual assault, medication
                       error, physical abuse by hospital staff, and restraint problems—along
                       with suicide, led to the most citations for deficiencies. Together, these
                       five types of events represented half or more of the IJ complaints in our
                       sample that allege adverse events and those with deficiencies. (See
                       Table 2 for deficiencies by type of alleged event.)




                         45   SOM, ch. 5, § 5075.9. Accessed at http://www.cms.gov on December 13, 2010.


    OEI-01-08-00590    ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                      13
F   I   N   D I       N G    S


                            Table 2: Deficiencies by Type of Alleged Event

                                                                                                            Number of           Number with
                                 Type of Alleged Event
                                                                                                           Complaints            Deficiencies
                                 Sexual assault                                                                           13                   8
                                 Medication error                                                                         10                   4
                                 Physical abuse by staff                                                                  10                   7
                                 Restraint-related                                                                        10                   6
                                 Delay in treatment                                                                         5                  2
                                 Patient elopement/transport issues                                                         5                  1
                                 Patient fall                                                                               5                  3
                                 Suicide                                                                                    5                  4
                                 Neglect                                                                                    4                  1
                                 Pressure ulcers                                                                            4                  3
                                 Wrong surgery (site or side)                                                               4                  2
                                 Foreign object retained                                                                    3                  2
                                 Misdiagnosis                                                                               3                  1
                                 Verbal abuse by staff                                                                      3                  2
                                 Complications during/following childbirth                                                  2                  1
                                 Surgical fire                                                                              2                  2
                                 Inappropriate treatment/handoff                                                            1                  1
                                 Infant to wrong parents                                                                    1                  1
                                 Infectious outbreak                                                                        1                  0
                                 Medical device-related injury                                                              1                  0
                                 Other fire                                                                                 1                  0
                                 Perforation during catheterization                                                         1                  1
                                 Transfusion error                                                                         1                    1
                                    Total                                                                                 95                   53
                                 Source: OIG analysis of FY 2008 ACTS data.

                            Complaints in our sample often included limited information for State
                            agencies to determine the priority and timing of their responses
                            About half of the complaints in our sample included 10 or fewer
                            sentences describing the alleged events. The initial information
                            included in IJ complaints often lacked details such as the pre- and post-
                            event chronology, patient diagnosis, and the location in the hospital
                            where the event occurred. (See Table 3 for details on information
                            contained in complaints.)




    OEI-01-08-00590         ADVERSE EVENTS       IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                                    14
F   I   N   D I       N G    S


                            Table 3: Initial Information Received by State Agencies for a Sample of
                            Complaints Alleging Serious Adverse Events
                                                                                                                       Number of
                                                                                                                      Complaints
                                 Information                                                                              (n = 95)
                                 Type of event                                                                                  93
                                 Description of harm                                                                            87
                                 Date of event                                                                                  73
                                 Gender of patient                                                                              69
                                 Chronology pre-event                                                                           47
                                 Initial diagnosis                                                                              46
                                 Chronology post-event                                                                          39
                                 Location in hospital where event occurred                                                      36
                                 Time of day when event occurred                                                                36
                                 Age of patient                                                                                 32
                                 Procedure being performed                                                                      31
                                 Staff present when event occurred                                                              21
                                 Source: OIG analysis of FY 2008 ACTS data.


                            For half of the complaint surveys, CMS set the scope of the survey to
                            address multiple Conditions of Participation
                            As part of CMS’s process of approving State agencies’ complaint surveys
                            of accredited hospitals, its regional offices direct State agencies to
                            evaluate hospitals’ compliance with one or more selected Medicare CoPs.
                            In half of the 78 surveys of accredited hospitals that CMS regional
                            offices approved, the regional offices directed State agencies to evaluate
                            compliance with multiple CoPs—from two to as many as seven. Overall,
                            regional offices directed State agencies to assess compliance with
                            199 Medicare CoPs during their 78 complaint surveys of accredited
                            hospitals. State agencies’ complaint surveys found that hospitals were
                            noncompliant with 45 of these CoPs.




    OEI-01-08-00590         ADVERSE EVENTS       IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                               15
F   I   N    D I      N G    S



            State agencies and CMS missed opportunities to                  Patient safety principles
                                                                            emphasize quality
                        incorporate patient safety principles
                                                                            improvement and
                                          in their responses
                                                                            learning from adverse
                            events to prevent them from recurring. Medicare’s complaint survey
                            process offers ways for State agencies and CMS to incorporate patient
                            safety principles when responding to alleged adverse events in
                            hospitals. These include the opportunity to evaluate hospitals’ quality
                            improvement systems and governance mechanisms by assessing how
                            the hospitals addressed alleged events. They also include the
                            opportunity to monitor and evaluate hospitals’ corrective actions for
                            sustained improvement and to share information with hospitals,
                            thereby providing an opportunity for hospitals to learn.
                            CMS directed State agencies to assess the hospitals’ performance
                            improvement systems in fewer than half of their complaint surveys at
                            accredited hospitals
                            In our sample, CMS regional offices directed State agencies to assess
                            hospitals’ compliance with the QAPI CoP for 33 of the 78 complaint
                            surveys they approved. CMS established the QAPI CoP to improve
                            patient safety in the hospital setting. 46 Central to this CoP is the idea
                            that the hospital should take responsibility for improving its
                            performance rather than relying on the survey process and the threat of
                            punitive actions. Patient safety experts contend that a high-functioning
                            quality improvement system bolstered by strong hospital leadership
                            enables hospitals to detect adverse events, learn from them, and
                            prevent their recurrence.47
                            CMS rarely directed State agencies to assess governance during their
                            complaint surveys at accredited hospitals
                            Only 12 of the 78 complaint surveys in our sample included State
                            surveyors’ examining the CoP regarding hospitals’ governing bodies.
                            This CoP states that a hospital’s governing body is legally responsible
                            for the conduct of the hospital as an institution, including its quality
                            improvement system. 48 Hospital leadership and medical staff are
                            accountable to the governing body. The governing body ensures that
                            medical staff members are properly credentialed and competent to

                              46 42 CFR § 482.21.
                              47 James P. Bagian, “Patient Safety: What Is Really at Issue?”,                                Frontiers of Health
                            Services Management, Vol. 22, No. 1, Fall 2005, pp. 3-16.
                              48 42 CFR § 482.12.




    OEI-01-08-00590         ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                                   16
F   I   N   D I       N G    S


                            deliver safe and effective care. Experts in patient safety recognize the
                            importance of governing bodies in establishing and maintaining a
                            culture of safety in health care organizations.49 Executives at case
                            study hospitals stated that their governing bodies play an important
                            role in demanding medical staff accountability for quality care.
                            State agencies performed little monitoring to verify that hospitals’ corrective
                            actions resulted in sustained improvements
                            State agencies required hospitals to submit plans of correction in
                            response to 19 complaints: 15 against accredited hospitals and
                            4 against nonaccredited hospitals. However, their oversight of these
                            plans was limited largely to ensuring that acceptable plans were in
                            place. State agencies visited hospitals to verify initial implementation
                            of 17 of the 19 plans. Only one hospital was required to submit data to
                            the State agency showing longer term compliance. In that case, the
                            State agency requested that the hospital submit data monthly, without
                            specifying an endpoint. CMS guidance states that hospitals should
                            institute corrective actions that are effective and sustained. 50 Indeed,
                            patient safety experts stress the importance of hospitals’ measuring
                            outcomes associated with process changes. 51
                            Even though they were not required to do so, accredited hospitals
                            voluntarily submitted plans of correction for standard-level deficiencies
                            identified during an additional 31 complaint surveys in our sample.
                            None of these plans required hospitals to submit data showing
                            longer term compliance. To verify that hospitals had implemented the
                            changes called for in the plans, State agencies followed up on eight of
                            these voluntary plans with in-person revisits and one by telephone.
                            State agencies did not always disclose the nature of the complaints to the
                            hospitals, thereby limiting hospitals’ ability to learn from alleged events
                            State agencies can be an important source of information for hospitals.
                            In fact, hospital staff reported in our hospital questionnaire that they
                            first learned about 16 of the complaints in our sample when State
                            agency surveyors arrived at their hospitals. However, hospital staff told
                            us that they never learned the nature of 3 of the complaints, and staff


                              49 NQF,   Hospital Governing Bodies and Quality of Care: A Call to Responsibility,
                            December 2, 2004.
                              50   SOM, ch. 2, § 2728B. Accessed at http://www.cms.gov on September 17, 2010.
                              51 James P. Bagian, “Patient Safety: What Is Really at Issue?”,                                Frontiers of Health
                            Services Management, Vol. 22, No. 1, Fall 2005, pp. 3-16.


    OEI-01-08-00590         ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                                   17
F   I   N   D I       N G    S


                            had trouble identifying the nature of 27 complaints in our sample
                            without our assistance. Discussions with hospital personnel during our
                            site visits corroborated these concerns; they noted that surveyors
                            sometimes declined to share the nature of the complaints they came to
                            investigate.
                            Such limited disclosure can prevent hospitals from learning about
                            alleged events, which may be near misses. A near miss is “an event or
                            situation that did not produce patient injury, but only because of
                            chance.” 52 Patient safety experts identify near misses as important
                            learning opportunities to prevent recurrence of adverse events.53
                            CMS guidance on complaint procedures does not address whether State
                            surveyors should reveal the nature of the complaints to hospital staff.
                            Rather, CMS guidance on disclosure is limited to protecting the
                            confidentiality of the complainant. 54 This approach to disclosure
                            contrasts with the complaint guidance that CMS provides to nursing
                            home surveyors; CMS advises them to disclose the general nature of the
                            surveys to the nursing homes’ administrators while maintaining
                            complainant confidentiality. 55

          CMS informed the Joint Commission of few                    CMS’s policy calls for its
        complaints, impeding the Joint Commission’s                   regional offices to—once
                                                                      complaints are resolved—
                 oversight of its accredited hospitals
                                                                      notify accreditors of all
                            complaints against hospitals they accredit. 56 However, CMS notified
                            the Joint Commission of only 28 of the 88 complaints against hospitals
                            it accredited.
                            Of these 28 complaints, the Joint Commission had records of
                            notification from CMS for only 8 complaints. In total, the Joint
                            Commission reported being aware of 23 complaints because, in addition
                            to the 8 complaints it learned of from CMS, it learned of 15 other
                            complaints from self-reporting hospitals, the media, and others.



                              52 Agency for Healthcare Research and Quality,                             Patient Safety Network Glossary.
                            Accessed at http://www.psnet.ahrq.gov on September 21, 2010.
                              53 J.P. Bagian, J. Gosbee, C.Z. Lee, et al., “The Veterans Affairs Root Cause Analysis

                            System in Action,” Journal on Quality Improvement, Vol. 28, Number 10, Fall 2002,
                            pp. 531-545.
                              54   SOM, ch. 5, § 5010. Accessed at http://www.cms.gov on September 21, 2010.
                              55   SOM, ch. 5, § 5300.2. Accessed at http://www.cms.gov on September 17, 2010.
                              56   SOM, ch. 5, § 5100. Accessed at http://www.cms.gov on September 17, 2010.


    OEI-01-08-00590         ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                            18
 F   I   N   D I       N G    S


                             Officials at the Joint Commission told us that its being unaware of
                             complaints against its accredited hospitals compromises Medicare’s
                             quality oversight system in several ways. First, it impedes the ability of
                             accreditors to respond to complaints that may be related to adverse
                             events or other problems at hospitals they oversee. This in turn can
                             deprive accreditors of important information when reviewing a
                             hospital’s performance to determine whether to renew its accreditation.
                             Finally, not sharing the results of the complaint surveys prevents
                             accreditors from using the survey results to improve the consistency
                             between the outcomes of accreditation surveys and those of State
                             agencies. Such consistency is a key measure that CMS uses to assess
                             the performance of accreditors. 57
                             See Appendix G for a description of how the Joint Commission
                             responded to the complaints in our sample of which it became aware.

Hospitals investigated most complaints in our sample,                 Hospitals reported being
              finding State agency responses valuable                 aware of 87 of the
                                                                      complaints in our sample,
                                        but disruptive
                                                                      and they investigated 75 of
                             them. We were unable to determine why hospitals did not investigate
                             the remainder.
                             Two-thirds of hospital investigations started before the State agencies
                             began their complaint surveys
                             Hospitals began 49 of their 75 investigations before the State agencies
                             arrived to conduct their onsite complaint surveys. Hospitals learned of
                             the majority of alleged events underlying complaints from their staff,
                             such as someone on the care team treating the patient. They responded
                             most swiftly when they learned of events in this way. In these cases,
                             hospitals began half of their investigations within a day of the events
                             and three-quarters within 6 days. In contrast, investigations took
                             longer to start when hospitals learned about the events from an outside
                             entity, such as a State agency. In those cases, hospitals began half of
                             their investigations within 22 days of the events and three-quarters
                             within 78 days.




                               57 42 CFR §§ 488.1 and 488.8.




     OEI-01-08-00590         ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                            19
F   I   N   D I       N G    S


                            Hospitals’ investigations were multidisciplinary and often involved hospital
                            leadership
                            Of the teams that hospitals assembled to investigate the 75 complaints,
                            all but 1 included multiple disciplines; 45 teams drew staff from 4 or
                            more disciplines. The disciplines most commonly represented on the
                            investigation teams were nursing, risk management, hospital
                            administration, and quality improvement. Multidisciplinary teams
                            enable hospitals to bring a wide range of expertise and experience to
                            their investigations.
                            Hospitals reported that medical, executive, or clinical leadership was
                            involved in all investigations. Involvement ranged from planning and
                            conducting investigations to disseminating the results of
                            investigations to hospital staff. Leadership involvement gives
                            prominence to the investigation and demonstrates the hospital’s
                            institutional commitment to patient safety. 58
                            Hospitals reported that they informed their governing bodies of 59 of
                            the 87 complaints of which they were aware. Furthermore, hospitals
                            reported that their governing bodies participated in their responses to
                            about half of complaints, most commonly by disseminating the
                            investigation results within the hospital.
                            Hospitals reported that State agency responses lent urgency to the
                            hospitals’ responses, promoted awareness of the Medicare CoPs, and
                            increased transparency
                            Hospitals reported that the presence of State agency surveyors elevated
                            the seriousness of their investigations. They noted that the attention
                            contributed not only to the urgency of any corrective actions stemming
                            from the alleged events, but sometimes also validated the hospitals’
                            responses.
                            Hospitals also identified the investigations as being valuable because by
                            referencing the CoPs, they promoted awareness of them. The Joint
                            Commission accredited nearly all of the hospitals in our sample, and
                            thus hospitals tended to be more familiar with its standards than with
                            the CoPs.
                            Furthermore, some hospitals in our sample reported that the State
                            agency complaint surveys helped them reinforce transparency and


                              58 James P. Bagian, “Patient Safety: What Is Really at Issue?”,                                Frontiers of Health
                            Services Management, Vol. 22, No. 1, Fall 2005, pp. 3-16.


    OEI-01-08-00590         ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                                   20
F   I   N   D I       N G    S


                            public accountability in dealing with adverse events. For example,
                            during our site visits, hospital leadership often mentioned the
                            important role that the State agency surveys—and their publicly
                            available reports—can have in the hospital’s accountability to its
                            patients, its staff, and the public. HHS and others promote public
                            accountability as an important avenue to earning the public’s trust.59, 60
                            Notably, four hospitals in our sample alerted the media about the
                            alleged adverse events by issuing a press release or holding a press
                            conference.
                            Hospitals reported that State agency responses sometimes disrupted their
                            investigations
                            Complaint investigations are inherently disruptive for hospitals.
                            Hospitals cited the State agencies’ surveys as disruptive particularly
                            when the State agencies were onsite while hospitals’ investigations or
                            corrective actions were still underway. Twenty-four corrective actions
                            were underway when the State agencies began their complaint
                            surveys. For example, one hospital was already making changes
                            aimed at preventing additional adverse events. These changes
                            included updating its policies and retraining staff; the hospital was
                            retraining staff when the State agency arrived. The hospital found
                            that the State agency’s actions disrupted the hospital’s efforts and led
                            to additional training within a few days of the hospital’s initial
                            retraining.
                            When complaints resulted in multiple responders, the disruption was
                            magnified. With multiple responders, the hospitals sometimes found
                            it confusing to navigate multiple investigations, standards, corrective
                            actions, and timelines. In some cases, the hospitals observed that the
                            magnitude of the responses appeared to be out of proportion to the
                            likelihood of the alleged events’ recurring.




                              59 D. M. Dudzinski, P. C. Hébert, M. B. Foglia, et al., “The Disclosure Dilemma—

                            Large-Scale Adverse Events,” New England Journal of Medicine, Vol. 363, No. 10,
                            September 2010, pp. 978-986.
                              60 HHS, Agency for Healthcare Research and Quality, Press Release, Study Recommends

                            Disclosure of Medical Mistakes That Affect Multiple Patients, September 1, 2010. Accessed
                            at http://www.ahrq.gov on October 7, 2010.



    OEI-01-08-00590         ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                           21
 F   I   N   D I       N G    S



     Hospital corrective actions resulted largely in                  Hospitals reported taking
training coupled with policy and process changes                      corrective actions when their
                                                                      complaint investigations found
                             problems and to resolve deficiencies identified by State agencies. They
                             reported taking such actions in 64 of the 87 complaints of which they
                             were aware. (See Table 4 for the corrective actions taken by hospitals.)
                             Table 4: Hospital Corrective Actions in Response to Internal Investigations
                             and/or State Agency Complaint Surveys

                                                                                                              Number of
                                                                                                                                    Percent of
                                  Corrective Action                                                          Complaints
                                                                                                                                   Complaints
                                                                                                                 (n = 64)
                                  Training staff                                                                             58           91%
                                  Policy changes                                                                             31           48%
                                  Process changes                                                                            31           48%
                                  Disciplinary action                                                                        22           34%
                                  Improvements/upgrades to physical plant                                                    19           30%
                                  Source: OIG analysis of hospitals' responses to OIG questionnaire.


                             Hospitals’ responses to 58 of the 64 complaints resulting in corrective
                             actions included training staff as a corrective action, and the responses
                             to 42 complaints included a policy or process change. Hospitals’
                             responses to 39 complaints resulting in corrective actions included both
                             training staff and changing policies or processes. For example, one
                             hospital changed its policy on administering medication through
                             gastronomy tubes and also educated nursing staff on the new policy.
                             Another hospital changed its sedation protocol and educated physicians
                             on the new process.
                             Hospitals took disciplinary actions less frequently, in one-third of
                             complaints resulting in corrective actions. The most common action was
                             a personnel action, such as firing or suspending staff. Hospitals also
                             reported taking actions regarding privileging (restricting a
                             practitioner’s scope of practice) and referring staff to law enforcement,
                             among other actions.
                             For just under one-third of the complaints resulting in with corrective
                             actions, the corrective actions included changes to devices, software, or
                             workspaces. Such changes are designed to prevent adverse events by
                             forcing staff into a course of action, rather than relying on their memory
                             or adherence to procedures. Examples of such actions taken by
                             hospitals include changing the color of ports on intravenous tubing,
                             changing screens on software for electronic medical records, and

     OEI-01-08-00590         ADVERSE EVENTS        IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                                 22
F   I   N   D I       N G    S


                            changing the location of equipment and supplies. Because such changes
                            may require the assistance of vendors and manufacturers, they can take
                            more time and be more difficult to implement than policy and process
                            changes, which the hospital can make independently.
                            Finally, we did not evaluate the appropriateness or effectiveness of
                            hospitals’ corrective actions. However, as we noted earlier in this
                            report, CMS conducted little monitoring to verify that hospitals’
                            corrective actions resulted in sustained improvement.




    OEI-01-08-00590         ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                           23
   R E C O M M E N D A T I O N S



                  Medicare relies on State agencies and CMS to respond to IJ
                  complaints—many of which allege adverse events—in hospitals.
                  Therefore these responses are an important part of Medicare’s patient
                  safety system as well as the regulatory mechanism for ensuring that
                  hospitals comply with the Medicare CoPs. Hospitals’ responses are also
                  critical components in ensuring that adverse events are addressed
                  appropriately.
                  This report identified missed opportunities for State agencies and CMS
                  to incorporate patient safety principles into Medicare’s responses to
                  adverse events. Such principles include assessing hospitals’
                  performance improvement systems and governing bodies, monitoring
                  hospitals for sustained improvements, and maximizing opportunities for
                  hospitals to learn from alleged adverse events. CMS also often failed to
                  inform the Joint Commission of complaints about hospitals it accredits,
                  thereby impeding the Joint Commission’s oversight.
                  Our recommendations address these shortcomings, which can
                  undermine the effectiveness of Medicare’s responses to IJ complaints.
                  We recommend that CMS:
                  Require that all Immediate Jeopardy complaint surveys evaluate compliance
                  with the Condition of Participation on quality assurance and performance
                  improvement
                  The QAPI CoP requires that hospitals have systems in place to
                  identify, track, analyze, and prevent adverse events. Ensuring that
                  hospitals have a robust QAPI system should be a priority. To
                  reinforce the importance of improving the quality and safety of care,
                  CMS should elevate the prominence of the QAPI CoP in complaint
                  surveys. CMS should require its regional offices and the State
                  agencies to ensure that this CoP is placed on surveyors’ agendas for
                  all IJ complaint surveys of hospitals.
                  Furthermore, CMS should consider limiting the initial scope of its
                  complaint surveys to the allegation itself and QAPI CoP. As we have
                  shown, State agencies and CMS often learn of IJ complaints weeks after
                  adverse events allegedly occurred, often after hospitals began their
                  investigations and corrective actions. Also, when State agencies and
                  CMS learn of events, they must determine the scope of complaint
                  surveys with little information beyond basic details. Limiting the initial
                  scope of complaint surveys to the allegation itself and the QAPI CoP
                  would enable surveyors to focus their initial efforts on investigating the

OEI-01-08-00590   ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                 24
R   E C     O    M    M   E    N D       A T         I     O      N       S


                          complaints and determining how well the hospitals addressed them. If
                          surveyors find that the hospitals have not adequately addressed the
                          problems or that ongoing noncompliance might exist, they should
                          broaden their complaint surveys to evaluate compliance with the
                          governing-body CoP and other relevant CoPs.
                          Ensure that State agencies monitor hospitals’ corrective actions for
                          sustained improvements
                          Defining and monitoring outcome measures are important elements of
                          quality improvement and, thereby, patient safety. Accordingly, CMS
                          should require State agencies to monitor hospitals' performance when
                          they require hospitals to develop plans of correction to resolve
                          deficiencies. Such monitoring should occur after hospitals have
                          implemented their plans of correction and might include collecting and
                          analyzing hospital performance data or revisiting hospitals to conduct
                          onsite reviews of performance data. State agencies should take action
                          when hospital corrective actions fail to yield effective and sustained
                          improvements.
                          Furthermore, as we have shown, State agencies sometimes followed up
                          onsite after accredited hospitals submitted voluntary plans of correction
                          in response to standard-level deficiencies. We recognize that in an
                          environment of limited resources and competing priorities such followup
                          is not easily provided. Thus, CMS could give greater weight to following
                          up and monitoring accredited hospitals with condition-level deficiencies
                          rather than standard-level deficiencies.
                          Amend guidance on disclosure to explain the nature of complaints to
                          hospitals
                          CMS should explore ways to improve communication with hospitals
                          during complaint surveys. For complaint surveys of nursing homes,
                          CMS’s SOM instructs State agencies to explain the nature of the
                          problems they are investigating during the surveys’ entrance
                          conferences while not divulging the exact problems or the identity of the
                          complainants.61 However, for complaint surveys of hospitals, the SOM
                          instructs State agencies only to conduct an exit conference during which
                          surveyors should review survey findings and any deficiencies found. 62 A
                          culture of learning—for example, learning from adverse events as well



                              61   SOM, ch. 5, § 5300.2. Accessed at http://www.cms.gov on September 17, 2010.
                              62   SOM. ch. 5, § 5080.2. Accessed at http://www.cms.gov on September 17, 2010.


    OEI-01-08-00590       ADVERSE EVENTS     IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                           25
R   E C    O      M   M     E   N D        A T           I    O       N      S


                          as from near misses—is a basic principle of patient safety. 63 To
                          maximize the opportunities for hospitals to learn from the complaints
                          being investigated, the hospitals must know something about the
                          nature of the complaints.
                          Improve communication with accreditors
                          CMS should ensure that its regional offices follow its policy on notifying
                          accreditors. CMS should clarify its instructions in the SOM and
                          educate regional office staff on how and when to notify accreditors of
                          complaint surveys against accredited hospitals. This would improve
                          Medicare’s system of quality oversight by informing accreditors of
                          potential problems at hospitals they oversee.
                          Furthermore, CMS should work with the Joint Commission and other
                          accreditors to ensure that their systems for tracking information
                          received from CMS are functioning properly.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          CMS concurred with our recommendations and described steps it will
                          take to increase the prominence of the QAPI CoP in complaint surveys.
                          These steps include issuing guidance on the types of allegations that
                          warrant a review of the QAPI CoP, analyzing data to determine
                          whether CMS can better direct survey attention to QAPI, and
                          developing onsite survey tools to improve assessment of compliance with
                          the QAPI CoP. CMS also described steps it will take to improve
                          monitoring the efficacy of corrective actions. These steps include
                          emphasizing to regional offices and State agencies CMS’s revisit policy
                          (i.e., its policy requiring State agencies to return to hospitals to ensure
                          that they are in substantial compliance), reassessing its policy
                          regarding followup on deficiency findings in accredited hospitals, and
                          examining the use of data to improve followup on plans of correction.
                          Finally, CMS stated that it will explore ways to improve communication
                          with hospitals about complaint investigations and work with regional
                          offices to improve compliance with its policy on notifying accreditation
                          organizations of complaints against accredited hospitals.
                          For the full text of CMS’s comments, see Appendix H. We made minor
                          changes to the report based on technical comments from CMS.


                            63 IOM,   To Err is Human: Building a Safer Health System, 1999.


OEI-01-08-00590           ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                         26
   A P P E N D I X ~ A

                  Tax Relief and Health Care Act of 2006
                  P.L. 109-432 § 203

                  DIVISION B—MEDICARE AND OTHER HEALTH PROVISIONS
                  TITLE II—MEDICARE BENEFICIARY PROTECTIONS
                  SEC. 203 OIG STUDY OF NEVER EVENTS


                  (a) Study.—
                  (1) In general.—The Inspector General in the Department of Health and
                  Human Services shall conduct a study on—
                  (A) incidences of never events for Medicare beneficiaries, including
                  types of such events and payments by any party for such events;
                  (B) the extent to which the Medicare program paid, denied payment, or
                  recouped payment for services furnished in connection with such events
                  and the extent to which beneficiaries paid for such services; and
                  (C) the administrative processes of the Centers for Medicare & Medicaid
                  Services to detect such events and to deny or recoup payments for
                  services furnished in connection with such an event.
                  (2) Conduct of study.—In conducting the study under paragraph (1), the
                  Inspector General—
                  (A) shall audit a representative sample of claims and medical records of
                  Medicare beneficiaries to identify never events and any payment (or
                  recouping of payment) for services furnished in connection with such
                  events;
                  (B) may request access to such claims and records from any Medicare
                  contractor; and
                  (C) shall not release individually identifiable information or
                  facility-specific information.
                  (b) Report.—Not later than 2 years after the date of the enactment of
                  this Act, the Inspector General shall submit a report to Congress on the
                  study conducted under this section. Such report shall include
                  recommendations for such legislation and administrative action, such as
                  a noncoverage policy or denial of payments, as the Inspector General
                  determines appropriate, including—




OEI-01-08-00590   ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                 27
A   P P     E   N     D I    X   ~   A


                            (1) recommendations on processes to identify never events and to deny
                            or recoup payments for services furnished in connection with such
                            events; and
                            (2) a recommendation on a potential process (or processes) for public
                            disclosure of never events which—
                            (A) will ensure protection of patient privacy; and
                            (B) will permit the use of the disclosed information for a root cause
                            analysis to inform the public and the medical community about safety
                            issues involved.
                            (c) Funding.— Out of any funds in the Treasury not otherwise
                            appropriated, there are appropriated to the Inspector General of the
                            Department of Health and Human Services $3,000,000 to carry out this
                            section, to be available until January 1, 2010.
                            (d) Never Events Defined.—For purposes of this section, the term “never
                            event” means an event that is listed and endorsed as a serious reportable
                            event by the National Quality Forum as of November 16, 2006.




    OEI-01-08-00590         ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                           28
   A P P E N D I X ~ B

                  Office of Inspector General Series of Reports on Adverse Events


                  December 2008
                  Adverse Events in Hospitals: Overview of Key Issues, OEI-06-07-00470
                  Adverse Events in Hospitals: State Reporting Systems,
                  OEI-06-07-00471
                  Adverse Events in Hospitals: Case Study of Incidence Among Medicare
                  Beneficiaries in Two Counties, OEI-06-08-00220


                  January 2010
                  Adverse Events in Hospitals: Public Disclosure of Information About
                  Events, OEI-06-09-00360


                  March 2010
                  Adverse Events in Hospitals: Methods for Identifying Events,
                  OEI-06-08-00221


                  November 2010
                  Adverse Events in Hospitals: National Incidence Among Medicare
                  Beneficiaries, OEI-06-09-00090




OEI-01-08-00590   ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                 29
             A P P E N D I X ~ C

National Quality Forum Serious Reportable Events
 Surgical Events
  A.   Surgery performed on the wrong body part
  B.   Surgery performed on the wrong patient
  C.   Wrong surgical procedure performed on a patient
  D.   Unintended retention of foreign object in a patient after surgery or procedure
  E.   Intraoperative or immediately postoperative death
 Product or Device Events
  A.   Patient death or serious disability associated with use of contaminated drugs, devices, or biologics provided by the health care facility
  B.   Patient death or serious disability associated with use or function of a device in patient care in which the device is used or functions
       other than as intended
  C.   Patient death or serious disability associated with intravascular air embolism that occurs while being cared for in a health care facility
 Patient Protection Events
  A. Infant discharged to the wrong person
  B. Patient death or serious disability associated with patient elopement
  C. Patient suicide, or attempted suicide, resulting in serious disability, while being cared for in a health care facility
 Care Management Events
  A.   Patient death or serious disability associated with a medication error
  B.   Patient death or serious disability associated with a hemolytic reaction because of administration of incompatible blood or blood products
  C.   Maternal death or serious disability associated with labor or delivery in a low-risk pregnancy while cared for in a health care facility
  D.   Patient death or serious disability associated with hypoglycemia, the onset of which occurs while patient is being cared for in a health
       care facility
  E.   Death or serious disability associated with failure to identify and treat hyperbilirubinemia in neonates
  F.   Stage III or Stage IV pressure ulcers acquired after admission to a health care facility
  G.   Patient death or serious disability because of spinal manipulative therapy
  H.   Artificial insemination with the wrong donor sperm or wrong egg
 Environmental Events
  A.   Patient death or serious disability associated with an electric shock while being cared for in a health care facility
  B.   Any incident in which a line designated for oxygen or other gas to be delivered to a patient contains the wrong gas or is contaminated by
       toxic substances
  C.   Patient death or serious disability associated with a burn incurred from any source while being cared for in a health care facility
  D.   Patient death or serious disability associated with a fall while being cared for in a health care facility
  E.   Patient death or serious disability associated with the use of restraints or bedrails while being cared for in a health care facility
 Criminal Events
  A.   Care provided by someone impersonating a health care provider
  B.   Abduction of a patient of any age
  C.   Sexual assault on a patient within or on the grounds of a health care facility
  D.   Death or significant injury resulting from a physical assault that occurs within or on the grounds of the facility
Source: National Quality Forum, Serious Reportable Events in Health Care 2006 Update: Consensus Report, Washington, DC, 2007, p. 7.




         OEI-01-08-00590            ADVERSE EVENTS     IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                                     30
   A P P E N D I X ~ D

                  Centers for Medicare & Medicaid Services Hospital-Acquired Conditions
                     Conditions
                      1.  Foreign object retained after surgery
                      2.  Air embolism
                      3.  Blood incompatibility
                      4.  Pressure ulcers (stages III and IV)
                      5.  Falls and Trauma
                          A. Fracture
                          B. Dislocation
                          C. Intracranial injury
                          D. Crushing injury
                          E. Burn
                          F. Electric shock
                      6. Manifestations of poor glycemic control
                          A. Hypoglycemic coma
                          B. Diabetic ketoacidosis
                          C. Nonketotic hyperosmolar coma
                          D. Secondary diabetes with ketoacidosis
                          E. Secondary diabetes with hyperosmolarity
                      7. Catheter-associated urinary tract infection
                      8. Vascular catheter-associated infection
                      9. Deep vein thrombosis/pulmonary embolism associated with the following
                          A. Total knee replacement
                          B. Hip replacement
                      10. Surgical site infection
                          A. Mediastinitis after coronary artery bypass graft
                          B. Associated with certain orthopedic procedures involving the
                               a. Spine
                               b. Neck
                               c. Shoulder
                               d. Elbow
                          C. Associated with certain bariatric surgical procedures for obesity
                               a. Laparoscopic gastric bypass
                               b. Gastroenterostomy
                               c. Laparoscopic gastric restrictive surgery
                  Source: Fiscal Year 2009 Hospital Inpatient Prospective Payment System Final Rule, 73 Fed. Reg. 48434,
                  48471–48472 (Aug. 19, 2008).




OEI-01-08-00590       ADVERSE EVENTS    IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                      31
   A P P E N D I X ~ E

                  Medicare Hospital Conditions of Participation

                                                                                         Code of Federal
                                                                                      Regulations Title 42
                    Condition                                                                     Citation
                    Compliance with Federal, State, and
                    local laws                                                                             § 482.11

                    Governing body                                                                         § 482.12
                    Patients' rights                                                                       § 482.13
                    Quality assessment and performance
                    improvement program                                                                    § 482.21

                    Medical staff                                                                          § 482.22
                    Nursing services                                                                       § 482.23
                    Medical record services                                                                § 482.24
                    Pharmaceutical services                                                                § 482.25
                    Radiologic services                                                                    § 482.26
                    Laboratory services                                                                    § 482.27
                    Food and dietetic services                                                             § 482.28
                    Utilization review                                                                     § 482.30
                    Physical environment                                                                   § 482.41
                    Infection control                                                                      § 482.42
                    Discharge planning                                                                     § 482.43
                    Organ, tissue, and eye procurement                                                     § 482.45
                    Surgical services                                                                      § 482.51
                    Anesthesia services                                                                    § 482.52
                    Nuclear medicine services                                                              § 482.53
                    Outpatient services                                                                    § 482.54
                    Emergency services                                                                     § 482.55
                    Rehabilitation services                                                                § 482.56
                    Respiratory care services                                                              § 482.57




OEI-01-08-00590   ADVERSE EVENTS    IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                  32
         A P P E N D I X ~ F

                  Sampled Complaints by State
                                                                      Number of
                    State
                                                                     Complaints
                    Tennessee                                                          21
                    Missouri                                                             9
                    California                                                           8
                    North Carolina                                                       8
                    Texas                                                                8
                    Florida                                                              7
                    Iowa                                                                 5
                    Kentucky                                                             5
                    West Virginia                                                        5
                    Louisiana                                                            4
                    Arkansas                                                             3
                    Kansas                                                               3
                    Oklahoma                                                             3
                    Connecticut                                                          1
                    District of Columbia                                                 1
                    Illinois                                                             1
                    Maryland                                                             1
                    Minnesota                                                            1
                    New York                                                             1
                    Ohio                                                                 1
                    Oregon                                                               1
                    Rhode Island                                                         1
                    Vermont                                                              1
                        Total                                                          99
                    Source: Office of Inspector General (OIG)
                    analysis of Fiscal Year (FY) 2008 Automated
                    Survey Processing Environment Complaints
                    Tracking System (ACTS) data.




OEI-01-08-00590   ADVERSE EVENTS    IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                  33
A   P P     E   N     D I    X   ~    F


                            Alleged Events and Patient Deaths in Sampled Complaints
                                                                                                                                   Complaints Including
                              Type of Alleged Event                                            Number of Complaints
                                                                                                                                        a Patient Death
                              Sexual assault                                                                                  13                      0
                              Medication error                                                                                10                      4
                              Physical abuse by staff                                                                         10                      0
                              Restraint-related                                                                               10                      7
                              Delay in treatment                                                                               5                      2
                              Patient elopement/transport issues                                                               5                      0
                              Patient fall                                                                                     5                      0
                              Suicide                                                                                          5                      5
                              Neglect                                                                                          4                      2
                              Pressure ulcers                                                                                  4                      0
                              Wrong site surgery                                                                               4                      0
                              Foreign object retained                                                                          3                      0
                              Misdiagnosis                                                                                     3                      1
                              Verbal abuse by staff                                                                            3                      0
                              Complications during/following childbirth                                                        2                      2
                              Surgical fire                                                                                    2                      0
                              Inappropriate treatment/handoff                                                                  1                      1
                              Infant to wrong parents                                                                          1                      0
                              Infectious outbreak                                                                              1                      0
                              Medical device-related injury                                                                    1                      0
                              Other fire                                                                                       1                      0
                              Perforation during catheterization                                                               1                      0
                              Transfusion error                                                                                1                      1
                              Unsafe conditions                                                                                4                      0
                                Total                                                                                         99                     25
                              Source: OIG analysis of FY 2008 ACTS data.




    OEI-01-08-00590         ADVERSE EVENTS    IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                                34
A   P P     E   N     D I    X   ~   F


                            Sampled Complaints by National Quality Forum Serious Reportable Events
                                                                                                                            Number of
                              National Quality Forum Serious Reportable Events
                                                                                                                           Complaints
                              Sexual assault on a patient within or on the grounds of the
                                                                                                                                     13
                              health care facility
                              Patient death or serious disability associated with the use
                              of restraints or bedrails                                                                               7

                              Patient suicide, or attempted suicide resulting in serious
                                                                                                                                      5
                              disability
                              Surgery performed on the wrong body part                                                                4
                              Patient death or serious disability associated with a
                                                                                                                                      4
                              medication error
                              Stage III or IV pressure ulcers acquired after admission to a
                                                                                                                                      4
                              health care facility
                              Retention of a foreign object in a patient after surgery or
                                                                                                                                      3
                              other procedure
                              Intraoperative or immediately post-operative death in an
                                                                                                                                      1
                              ASA Class I patient
                              Patient death or serious disability associated with patient
                              elopement (disappearance)                                                                               1

                              Patient death or serious disability associated with a
                                                                                                                                      1
                              hemolytic reaction
                              Maternal death or serious disability associated with labor
                                                                                                                                      1
                              or delivery in a low-risk pregnancy
                              Patient death or serious disability associated with a burn                                              1
                              Not a National Quality Forum event                                                                     54
                                 Total                                                                                               99
                              Source: OIG analysis of FY 2008 ACTS data.



                            Sampled Complaints by Centers for Medicare & Medicaid
                            Services Adverse Event Typologies
                                                                                                                            Number of
                              Hospital-Acquired Conditions
                                                                                                                           Complaints
                              Falls and trauma                                                                                      12
                              Pressure ulcer, stage III or IV                                                                         4
                              Foreign object retained after surgery                                                                   3
                              Blood incompatibility                                                                                   1
                              Not a hospital-acquired condition                                                                      79
                                 Total                                                                                               99
                              Source: OIG analysis of FY 2008 ACTS data.

                                                                                                                            Number of
                              Surgery-Related Events
                                                                                                                           Complaints
                              Surgery on the wrong body part                                                                          2
                              Wrong surgery performed on a patient                                                                    2
                              Not a surgery-related event                                                                            95
                                 Total                                                                                               99
                              Source: OIG analysis of FY 2008 ACTS data.


    OEI-01-08-00590         ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                           35
      A P P E N D I X ~ G
                  Joint Commission Response to Complaints

                  The Joint Commission was aware of 23 of the 95 complaints in our
                  sample. It responded to these complaints through its traditional
                  compliance process and its sentinel event process. In a few cases, it
                  responded through both processes. See Table G-1 for detail on how the
                  Joint Commission responded to the complaints.
                  Table G-1: Joint Commission Responses to Complaints
                                                                                             Number of            Percentage of
                    Type of Response                                                        Responses               Responses
                    Traditional compliance process only                                                     11               48%
                    Sentinel event process only                                                              8               35%
                    Both processes                                                                           4               17%
                        Total                                                                               23             100%
                    Source: Office of Inspector General analysis of FY 2008 Joint Commission data.


                  The Joint Commission responded through its compliance process
                  primarily by requesting written responses and conducting onsite
                  surveys of hospitals. For seven of the alleged events in our sample, it
                  requested written responses in the form of plans of correction or
                  response letters. The Joint Commission requested a plan of correction
                  from a hospital when the Centers for Medicare & Medicaid Services
                  notified it that a hospital was out of compliance with the Conditions of
                  Participation. When an event alleged in a complaint was less serious,
                  the Joint Commission requested that the hospital write a response
                  letter to explain how the hospital had corrected the problem.
                  The Joint Commission conducted six onsite surveys in response to six
                  complaints in our sample. It did so when the complaints indicated that
                  immediate threats to patient safety might exist at the hospitals. The
                  Joint Commission conducted four onsite surveys within 31 working days
                  of receiving the complaints and conducted the other two surveys 39 and
                  88 working days after receiving the complaints.
                  The Joint Commission responded to 12 complaints with its sentinel
                  event process. The sentinel event process is triggered if a complaint
                  alleges an event on the Joint Commission’s list of sentinel events.64
                  (See Table G-2.) The process focuses on ensuring that hospitals have


                    64 The Joint Commission,             Comprehensive Accreditation Manual for Hospitals (CAMH)
                  SE-3 - SE-4 (2009).




OEI-01-08-00590   ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                   36
A   P P     E   N     D I    X     ~    G


                            conducted thorough and credible root cause analyses of the events and
                            prepared action plans of risk reduction strategies and measures for
                            evaluating their effectiveness. 65
                            Table G-2: Joint Commission Sentinel Events
                              Description of Sentinel Event
                              Event resulting in an unanticipated death or major permanent loss of function, not related to
                              the natural course of the patient’s illness or underlying condition.
                              or
                              Event is one of the following (even if the outcome was not death or major permanent loss of
                              function unrelated to the natural course of the patient’s illness or underlying condition):
                                 Suicide of any patient receiving care, treatment, and services in a
                                 staffed-around-the-clock care setting or within 72 hours of discharge;
                                   Unanticipated death of a full-term infant;
                                   Abduction of any patient receiving care, treatment, and services;
                                   Discharge of an infant to the wrong family;
                                   Rape;
                                   Hemolytic transfusion reaction involving administration of blood or blood products having
                                   major blood group incompatibilities (ABO, Rh, other blood groups);
                                   Surgical and nonsurgical invasive procedure on the wrong patient, wrong site, or wrong
                                   procedure;
                                   Unintended retention of a foreign object in a patient after surgery or other procedure;
                                   Severe neonatal hyperbilirubinemia (bilirubin >30 milligrams/deciliter);
                                   Prolonged fluoroscopy with cumulative dose >1,500 rads to a single field or any delivery
                                   of radiotherapy to the wrong body region or >25% above the planned radiotherapy dose;
                              Any other event defined by accredited hospital as a sentinel event.
                              Source: The Joint Commission.

                            The Joint Commission followed up on improvements identified by onsite
                            surveys and root cause analysis by requiring hospitals to submit
                            performance data. When it cites hospitals for noncompliance with
                            standards or when hospitals submit action plans in response to sentinel
                            events, the Joint Commission requires hospitals to submit
                            documentation and performance data to verify sustained improvement.
                            The performance data cover 4 months after improvements were put in
                            place and must show that the hospitals are reaching performance
                            targets. Failure to submit data or to show improvement might
                            adversely affect a hospital’s accreditation status.66, 67 The Joint
                            Commission reported that every hospital it cited for noncompliance or
                            that submitted a root cause analysis later provided performance data.


                              65 The Joint Commission,              CAMH SE-2 (2009).
                              66 The Joint Commission,              CAMH SE-11 - SE-12 (2009).
                              67 The Joint Commission,              CAMH ACC-46 - ACC-47 (2009).




    OEI-01-08-00590         ADVERSE EVENTS    IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                            37
    A P PEN D                        x         H



   Agency Comments




                     DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Centers lor Medicare & Medicaid Services


                                                                                               Administrator
                                                                                               Washington, DC 20201




                  DATE:            AUG 1 8 2011
                  TO: 	          Daniel R, Levinson
                                 Inspector Geru:r.al
                                                            /S/
                  FROM: 	        Donald M. Derwidle M.D.
                                 Administrator

                  SUBJECT: 	 Office ofInspector General (01G) Draft Report: "Adverse Events in Hospitals:
                             Medicare's Responses to Alleged Serious Events" (OEI-OI-08-00590)


                  Thank you for the opportunity to review and comment on this very timely and important study.
                  In this report, the Office of Inspector General (OIG) examines the response of the Center for
                  Medicare & Medicaid Services (CMS) and State Survey Agencies (SAs) to allegations of serious
                  adverse events in hospitals. An "adverse event" refers in the 01G study to harm to a patient as a
                  result of medical care or in a health care setting.

                  There is no greater opportunity for far reaching improvement in the experience of individuals
                  and families in the United States health care system than in the arena of patient safety - and no
                  greater opportunity for savings to the taxpayer and the beneficiary without reducing access to
                  care.

                  We note that since the incidents reviewed in this report, the Department of Health and Human
                  Services (HHS) has launched a new and ambitious public-private partnership entitled the
                  "Partnership for Patients." This national Partnership will help improve the quality, safety and
                  affordability of health care not just for Medicare beneficiaries, but for all Americans. HHS and
                  eMS are working with a wide variety of public and private partners to achieve the two core
                  goals of this Partnership:

                      • 	 Keeping patients from getting injured or sicker in the health care system, and
                      • 	 Helping patients heal without complication by improving transitions from acute-care
                          hospitals to other care settings, such as home or a skilled nursing facility.

                  In just a few months, more than 4,000 organizations - including more than 2,500 hospitals ­
                  have signed the Partnership Pledge. 





OEI·Ol·08·00590           ADVERSE EVENTS IN HOSPITALS:   MEDICARE'S RESPONSES TO ALLEGED SERIOUS EVENTS
                                                                                                                               38
A   P P     E   N     D I    X   ~   H




    OEI-01-08-00590         ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                           39
A   P P     E   N     D I    X   ~   H




    OEI-01-08-00590         ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                           40
A   P P     E   N     D I    X   ~   H




    OEI-01-08-00590         ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                           41
A   P P     E   N     D I    X   ~   H




    OEI-01-08-00590         ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                           42
   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Joyce M. Greenleaf,
                  Regional Inspector General for Evaluation and Inspections in the
                  Boston regional office, and Russell W. Hereford, Deputy Regional
                  Inspector General.
                  Kenneth Price served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Boston regional
                  office who contributed to the report include Jesse Valente and
                  Carolyn Kenline; central office staff who contributed include
                  Rita Wurm.




OEI-01-08-00590   ADVERSE EVENTS   IN   H O S P I TA L S : M E D I C A R E ’ S R E S P O N S E S   TO   ALLEGED SERIOUS EVENTS
                                                                                                                                 43
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
